                                WHITE PAPER



The Global Logistics Revolution:
A Pivotal Moment for the
Postal Service
June 3, 2013




                     Report Number: RARC-WP-13-010
RARC-WP-13-010                                                             The Global Logistics Revolution




                                                                   EXECUTIVE SUMMARY


   The Global Logistics Revolution: A Pivotal
        Moment for the Postal Service
A confluence of forces is revolutionizing                           Highlights
the global logistics market, altering
hundreds of years of traditional commerce             The eruption of the Global Logistics
and resulting in major implications for               Revolution is fundamentally changing
postal operators. We call this rapidly                how, when, and where things are
changing environment the Global Logistics             produced and delivered, giving more
Revolution. It is fundamentally changing              power to consumers.
how, when, and where goods are
produced, purchased, and delivered,                   In today’s increasingly globally
                                                      connected world, consumers expect
moving power from manufacturers and                   speed, omnichannel access, and
retailers to consumers.                               expanded logistics services.
Forces and Trends Fueling the Global                  Some foreign posts are better serving
Logistics Revolution                                  their customers and earning an
There are three major developed forces                increasing portion of their total
                                                      revenues by providing an array of
behind these dramatic changes. First,
                                                      logistics services.
physical location and national borders
have become less important as                   The Postal Service is well positioned to
globalization changes how, when, and            move into the large and fast-growing
where goods are produced and sold.              value-added logistics market.
Second, the digital revolution has spurred
technological advancements that make            The Postal Service risks losing volume
communications, transactions, and product       in the expedited and small package
development continuously faster and             market if it fails to at least keep up with
easier than previously imaginable. Finally,     evolving customer expectations for
                                                improved and expanded logistics
manufacturing costs continue to decrease
                                                services.
while some key inputs to transportation
and logistics costs are increasing. Already, these forces are converging and building
pressure to increase speed and squeeze more costs out of the supply chain.

In addition, there are a number of emerging trends that may alter the global supply
chain in uncertain ways. As such, the Global Logistics Revolution remains highly volatile
and has not yet settled into equilibrium. For example, one trend reshaping the

U.S. Postal Service Office of Inspector General                                              June 3, 2013
                                                  i
RARC-WP-13-010                                                          The Global Logistics Revolution



landscape is the rise of mobile commerce. Consumers now use smart mobile devices to
make purchases and arrange delivery on the go, at the expense of traditional retail and
PC-based commerce. In addition, mobile commerce has fundamentally changed what
many people think of as a “store” — stores are no longer just something you find at the
mall or your home computer. Mobile technology makes “e-tailing” ubiquitous, and a
single shopping experience can now occur across many channels. In response, retailers
are creating “omnichannel” or seamless shopping experiences across physical and
digital destinations.

Another emerging trend is that major urban areas are starting to connect to and
mutually reinforce a global transportation supergrid that may one day link together big,
international megacities that will act as logistics hubs. But this threatens to leave behind
disadvantaged urban communities, rural areas, and other places off the grid. Without
crucial last-mile links, some people may not connect to the supergrid, creating a new
society made up of “haves” and “have-nots.”

Both manufacturing and distribution are evolving in ways that could lead to more
localized production. For example, some manufacturing jobs are returning to the United
States not only because of a shrinking cost gap, but also so production can be closer to
end customers and research and development centers. Furthermore, emerging
technologies like 3-D printing are starting to disrupt traditional supply chain structures in
some industries, by bringing small-scale product manufacturing and shipments down to
the most local level. These changes could result in an increase in parcel shipments of
raw materials and individual finished goods.

In response to these forces and trends, logistics and delivery firms are adapting to the
changing environment by expanding their service offerings from basic transportation of
goods to additional, value-added services. Examples of these value-added services
include microwarehousing, order picking, assembly, and comprehensive returns
management. Manufacturers are increasingly outsourcing many key activities to third-
party logistics providers (3PLs).

Implications for the Postal Service
The Global Logistics Revolution has clear implications for the U.S. Postal Service. By
offering value-added logistics services and partnering with existing logistics firms, the
Postal Service could both better meet citizens’ needs and help position U.S. commerce
for the future, while also providing a new revenue stream. Enhanced logistics services
could support the Postal Service’s core products by providing a more comprehensive
range of options and services. Most importantly, failure to at least keep pace in this area
could have long-term negative impacts on the Postal Service’s expedited and small
package volume.

Some world posts have already built a strong presence in the logistics market by
purchasing or partnering with existing logistics firms or by developing their own
capabilities internally. These services have not only helped them meet customers’
changing needs, but also provided growing revenue streams that offset declines in
traditional mail volume. World posts have extensive last-mile experience and

U.S. Postal Service Office of Inspector General                                           June 3, 2013
                                                  ii
RARC-WP-13-010                                                         The Global Logistics Revolution



established infrastructure in areas other providers are less interested in serving. These
assets could help them maintain linkages to all citizens and foster economic activity. By
doing so, they could help citizens and businesses navigate through the increasing
congestion and environmental hazards associated with emerging megacities.

This is a pivotal moment for the Postal Service. As the Global Logistics Revolution
collapses the old model and reshapes traditional value chains, new players and
emerging forces are focusing on eliminating the costs associated with existing
middlemen. Producers and consumers increasingly expect savings from greater
efficiency to be passed directly to them. For innovators and startup companies, such
savings may be the road to success and these changes may pose great risks to
established players.

A common infrastructure supported by the Postal Service and other world posts can
address voids in new value chains, assuring that American commerce and citizens
maintain a direct link to the changing global marketplace. As the Global Logistics
Revolution continues to change the landscape, the Postal Service must become
constantly vigilant and agile to provide what U.S. citizens and commerce need and
demand from their national infrastructure. In addition, a dedicated unit led by individuals
with experience in the value-chain logistics industry could provide the Postal Service
with the focus and skills it needs to succeed. Finally, the Postal Service must have the
support of key stakeholders to gain the flexibility necessary to provide the logistics
services that Americans seek. This paper is a first look at the Global Logistics
Revolution and what it means to the Postal Service. More research on this critical issue
is necessary.




U.S. Postal Service Office of Inspector General                                          June 3, 2013
                                                  iii
RARC-WP-13-010                                                                                         The Global Logistics Revolution



                                                  Table of Contents
Introduction ..................................................................................................................... 1

Forces and Trends Fueling the Revolution...................................................................... 2
     Societal Changes ....................................................................................................... 2
     The Rise of a Global Transportation Supergrid — Moving People,
     Commerce, and Ideas................................................................................................ 3
     Geography of Manufacturing ..................................................................................... 4
     The Evolution of Retail ............................................................................................... 6

Supply Chains Evolve in a New Era ................................................................................ 9
     Push vs. Pull .............................................................................................................. 9
     Supply Chains Splinter............................................................................................. 10
     Demand for Value-added Services: New Providers Emerge ................................... 10
     Environmental Concerns .......................................................................................... 11

A Pivotal Moment: Implications for the Postal Service .................................................. 12
     First and Last-Mile Capabilities are Critical to Success ........................................... 13
     Succeeding in Logistics Requires Flexibility and Demonstrated
     Value........................................................................................................................ 14
     Logistics Services Could Support Core Products and New Revenue ...................... 15

Logistics Services at Other World Posts ....................................................................... 16
     Diversification Strategies ......................................................................................... 16
     Barriers to Entry ....................................................................................................... 18

Strategic Guidance for the Postal Service ..................................................................... 18

Conclusion .................................................................................................................... 21




U.S. Postal Service Office of Inspector General                                                                          June 3, 2013
                                                                 iv
RARC-WP-13-010                                                                               The Global Logistics Revolution




                                                       Tables
Table 1                   Examples of Value-added Logistics Services ...................................... 11

Table 2                   Total Post Revenue vs. Revenue from Logistics ................................. 18




                                                      Figures
Figure 1                  Forces and Trends Affecting Global Logistics ....................................... 2

Figure 2                  3-D Printing May Lead to More Package Mail Volume .......................... 6

Figure 3                  Evolution of Omnichannel Retail............................................................ 7

Figure 4                  Implications for the Postal Service....................................................... 13

Figure 5                  Foreign Post Diversification Matrix ...................................................... 16

Figure 6                  Logistics Services Value Spectrum ..................................................... 19




U.S. Postal Service Office of Inspector General                                                                June 3, 2013
                                                             v
RARC-WP-13-010                                                         The Global Logistics Revolution




  The Global Logistics Revolution: A Pivotal
       Moment for the Postal Service

Introduction
A confluence of forces is revolutionizing the global logistics market, altering hundreds of
years of traditional commerce and resulting in major implications for postal operators.
Several catalysts are fueling this transformation. Globalization has made the world
smaller and brought together formerly disconnected populations. Advancements in
digital technology are changing how we learn, communicate, and make purchases.
Evolving transportation technologies and policies have also led to increased
connectivity. We call this rapidly changing environment the Global Logistics Revolution.
It is fundamentally changing how, when, and where goods are produced, purchased,
and delivered by moving the balance of power from manufacturers and retailers to
consumers. Consumer expectations of instant access to information and quick delivery
of goods, regardless of geographic origin, make logistics an increasingly challenging
market that is attracting new entrants, including local and regional companies.

Logistics is both a simple and complex term. In a world being reshaped by the Global
Logistics Revolution, logistics can mean many different things to different people. To
some, it means just the transport and delivery of goods. To others, it means the
management of resources and information between two different points. In the context
of this paper, we define logistics as the transport of goods plus some value-added
services that can range from simple to complex. Depending on the customer and
provider, these services can include customs solutions, repairing or refurbishing
products, warehousing goods, and the many actions behind getting goods from here to
there. Not all of these services are immediately relevant to postal operators, but they all
play an important role in today’s global commerce. The consumers of goods often see
different aspects of the wide range of logistics services than the shippers of goods see,
and are sometimes unaware of what is going on “behind the scenes.” Regardless of
vantage point, the Global Logistics Revolution is changing the nature of the logistics
market for both consumers and shippers.

Emerging forces and trends will continue to fundamentally shift the balance of power
toward consumers, creating an increasingly complex and volatile operating environment
for logistics firms. Postal operators, with their ability to connect to vast numbers of
homes and businesses, are uniquely positioned to take advantage of these changing
market conditions. A number of foreign postal operators have already responded to the
changing environment by diversifying their offerings to provide value-added logistics
services. This allows them to both better meet consumer demands and simultaneously
generate new sources of revenue. The Global Logistics Revolution presents a pivotal
moment for the U.S. Postal Service. Will it find a way to make use of the new logistics
environment by bringing its services further into the 21st century, or will it miss this
opportunity to better serve citizens and businesses in a new era?


U.S. Postal Service Office of Inspector General                                          June 3, 2013
                                                  1
RARC-WP-13-010                                                                           The Global Logistics Revolution



Forces and Trends Fueling the Revolution
Today, the Global Logistics Revolution continues to evolve in response to powerful new
forces and trends converging to propel it forward. Before understanding how the Global
Logistics Revolution will affect postal operators, it is essential to understand how these
forces and trends are reshaping commerce more broadly. These forces and trends
partially stem from new customer expectations, which further accelerate the pace of
change. For example, mobile devices heighten the accessibility and convenience of the
Internet by allowing people to communicate and transact anytime, anywhere. This new
paradigm is driving retailers and other partners along the supply chain to, in turn, evolve
in order to support a customer-centric demand for immediacy, customization, and a
seamless experience. As a result, supply chains continue to shift from a
manufacturer/retailer-driven “push” structure to a consumer-driven “pull” structure.

The forces and trends propelling the Global
Logistics Revolution are interconnected —
they influence and drive each other. Their                           Figure 1: Forces and Trends
ultimate impact is impossible to predict, but it                      Affecting Global Logistics
is clear they are reshaping how citizens
across the world interact and trade with each
other. Figure 1 shows the major forces and
trends affecting global logistics.

Societal Changes
Society is changing at an unprecedented
speed. This is partly due to the explosion in
digital communications, which frees
individuals to control how, when, and where
they communicate, collect information, and
make decisions. The rise of smartphones has
brought about a level of interconnectivity
unimaginable even a few decades ago. It also
simultaneously fosters society’s demand for
flexibility and instant gratification. Social media is disrupting traditional approaches for
engagement, communication, publishing, and marketing. As such, social media is
shifting consumer behaviors and changing business models to those that emphasize
two-way, interactive relationships. 1 Consumers increasingly rely on social networks to
guide them in their purchase decisions.

For many consumers, digital communications technology is now a permanent part of
everyday life. This impact is most profound for the so-called “digital natives” — young
people for whom adoption of technology is second nature. Younger generations have
even greater expectations for customization and convenience, especially the Millennial
generation — those generally now between ages16 and 34. This generation quickly
1
 Global Trends, “GT Briefing September 2012: Social Business,” September 2012,
http://www.globaltrends.com/monthly-briefings/159-gt-briefing-september-2012-social-business.

U.S. Postal Service Office of Inspector General                                                            June 3, 2013
                                                        2
RARC-WP-13-010                                                                         The Global Logistics Revolution



adapts to new technological changes and uses them to fit their individualized lifestyles.
They want access to goods and information anytime and anywhere. In addition, they are
more likely than other generations to view communications technology as an
opportunity to interact with others, to share original content, and to trust peers and
friends rather than large corporations or academic experts. 2

Many modern consumers are also dedicated to sustainability, and corporations are
beginning to respond to this growing interest. More individuals and corporations want to
use renewable energy and reduce their carbon footprints. Also, a growing number of
consumers demand low-carbon products and are conscious of poor environmental
practices. To many, sustainability increasingly means recycling, reusing, donating, or
reselling goods to other individuals, 3 such as on Internet sites like eBay or Amazon.
Tossing used goods in the trash is no longer an automatic reflex.

The Rise of a Global Transportation Supergrid — Moving People,
Commerce, and Ideas
A recent study commissioned by DHL Deutsche Post envisioned a worldwide supergrid
on which people, goods, information, ideas, and capital will interact freely. 4 This
                               supergrid is fueled by the clustering of people in big
  Megacities on a global       cities, a trend that has already begun. The result is the
  transportation supergrid     formation of “megacities,” usually defined as a
  will drive the future        metropolitan area with a total population in excess of 10
  economy by                   million people, which contain an increasingly large share
  concentrating ideas,         of the world’s most highly skilled, educated, and
  people, and commerce.        entrepreneurial people. 5 The megacities also contain
                               most manufacturing jobs, including a great majority of
                             6
high-tech manufacturing jobs. In other words, these megacities are the drivers of
modern economies.

Megacities play a key role in this emerging supergrid through their relationship and
interactions with their surroundings, including suburbs, neighboring rural areas, and
nearby cities. Together, these megacities and their surroundings form “megaregions,” 7 a
2
  Christine Barton, Jeff Fromm, and Chris Egan, “The Millennial Customer: Debunking Stereotypes,” bcg
perspectives, April 16, 2012,
https://www.bcgperspectives.com/Images/BCG_The_Millennial_Consumer_Apr_2012%20(3)_tcm80-103894.pdf and
Christine Barton, Lara Koslow, Jeff From, and Chris Egan, “Millennial Passions: Food, Fashion, and Friends,” bcg
perspectives, November 6, 2012, https://www.bcgperspectives.com/Images/Millennial_Passions_Nov_2012_tcm80-
121010.pdf.
3
  Food Logistics, “Sustainability: Reverse Logistics,” June 30, 2009,
http://mobile.foodlogistics.com/article/10255802/sustainability-reverse-logistics?page=3.
4
  Deutsche Post AG, Delivering Tomorrow: Logistics 2050, A Scenario Study, February 2012,
http://www.dpdhl.com/content/dam/logistik_populaer/Studie2050/szenario-study-logistics-2050-en.pdf.
5
  Susanne Dirks, Constantin Gurdgiev, and Mary Keeling, Smarter Cities for Smarter Growth, IBM Institute for
Business Value, May 2010,
http://www.ibm.com/smarterplanet/global/files/gb__en_uk__cities__smarter_cities_for_smarter_growth.pdf?ca=conte
nt_body&met=uk_smarterplanet_sustainable_cities_ideas&re=spc.
6
  Susan Helper, Timothy Krueger, and Howard Wial, Locating American Manufacturing: Trends in the Geography of
Production, Brookings Institution, May 2012, http://www.brookings.edu/research/reports/2012/05/09-locating-
american-manufacturing-wial.
7
  Catherine L. Ross, Megaregions: Planning for Global Competitiveness (Washington, DC: Island Press, 2009).

U.S. Postal Service Office of Inspector General                                                          June 3, 2013
                                                       3
RARC-WP-13-010                                                                      The Global Logistics Revolution



set of interconnected trade hubs. The megaregions serve as vast concentrations of
population, knowledge, and commerce. They connect centers of mass production with
centers of mass consumption. As of 2008, the top 40 megaregions already represented
one-fifth of the world’s population, two-thirds of global economic output, and more than
85 percent of all global innovation. 8 Today the top five megaregions are Tokyo-
Yokohama, with 37 million inhabitants, followed by Jakarta, Seoul-Incheon, Delhi, and
Shanghai. The New York metropolitan area is the eighth largest megaregion, with 20
million residents. 9 One day, most of the world’s new citizens will be born in
megaregions. In fact, megaregions are expected to house 7 of every 10 new Americans
by 2040. 10

But the rise of megaregions presents its own series of challenges. Although
megaregions enable complex logistics and trade opportunities that could bolster the
world economy, their growth also increases congestion challenges for goods
distribution. Moreover, megaregions could exacerbate the existing urban-rural and
inner-outer urban divides, leading to fears that rural and economically disadvantaged
areas will be increasingly forgotten in the new global economy. Governments must find
ways to also connect the periphery to the global transportation supergrid to ensure that
the rapid exchange of people, commerce and ideas includes all citizens — not just
those located in mass, affluent urban areas. 11

Geography of Manufacturing
New developments in manufacturing are underway. After decades of moving American
manufacturing jobs offshore to countries with cheaper labor, some companies are now
bringing some production elements back to home markets — a phenomenon known as
“reshoring.” Some of these companies in the United
States include Google, General Electric, Caterpillar,      Some manufacturing is
and Ford Motor Company. 12 Increased                       coming back to the U.S.
responsiveness, by way of manufacturing or final           By 2020, this trend could
assembly at the point of consumption, is a driving force   create 5 million new jobs
behind this shift. For example, Lenovo, a Chinese          and $130 billion in annual
company that makes computers, recently began               exports.
production at a factory in North Carolina due, in part, to




8
   Richard Florida, “The Rise of the Mega-Region,” The Wall Street Journal, April 12, 2008,
http://online.wsj.com/article/SB120796112300309601.html.
9
  Joel Kotkin and Wendell Cox, “The World’s Fastest-Growing Megacities”, Forbes.com, April 8, 2013,
http://www.forbes.com/sites/joelkotkin/2013/04/08/the-worlds-fastest-growing-megacities/.
10
   Robert E. Lang and Dawn Dhavale, Beyond Megalopolis: Exploring America’s New “Megapolitan” Geography,
Metropolitan Institute at Virginia Tech, Census Report 05:01, May 2005,
http://america2050.org/pdf/beyondmegalopolislang.pdf.
11
   Duetsche Poste AG, Delivering Tomorrow: Logistics 2050, A Scenario Study, February 2012,
http://www.dpdhl.com/content/dam/logistik_populaer/Studie2050/szenario-study-logistics-2050-en.pdf,
pp. 14, 15.
12
   “Here, there and everywhere,” The Economist, January 19, 2013, http://www.economist.com/news/special-
report/21569572-after-decades-sending-work-across-world-companies-are-rethinking-their-offshoring.

U.S. Postal Service Office of Inspector General                                                       June 3, 2013
                                                     4
RARC-WP-13-010                                                                                The Global Logistics Revolution



a need to quickly respond to the desires of American consumers. 13 Some estimates of
the potential economic impact indicate that reshoring could foster 5 million new jobs and
$130 billion in additional annual exports by 2020 in the United States. 14

Responding quickly to American customers’ demands is only one reason some
companies have decided to move production to the United States. Another contributing
factor is that wages continue to rise in China and other formerly popular outsourcing
destinations. 15 Beyond increasing input costs, many companies are now realizing that
overseas shipping of manufactured goods is expensive and reduces responsiveness to
supply chain disruptions, such as natural disasters. 16 Lastly, better innovation may
result from locating production and research and development closer together, as well
as closer to the final consumer. 17

Another emerging trend that may affect the geography of manufacturing is 3-D
printing. 18 This process involves making three-dimensional solid objects from a digital
model using raw materials like liquids or powders, building layer upon layer. 19 Even
though the technology is fairly new, 3-D printing could one day radically transform or
even make obsolete some global supply chains. 20 The 3-D printing market is growing at
16 percent per year and is expected to reach about $5 billion by 2020. 21 The effects of
3-D printing are beginning to be felt across a wide variety of industries, including the
jewelry, footwear, industrial design, architecture, engineering, construction, automotive,
aerospace, medical, and dental industries.

At its most extreme, continued commercialization of 3-D printing could mean that
individual citizens will manufacture items right in their own homes or shops and shatter
existing supply chains. Traditionally, high volume shipments of raw materials to factories
and finished goods to retail stores rarely travel via the Postal Service. However,
because 3-D printing may lead to rapid prototyping and mass customization of goods,
the Postal Service could play a larger role by shipping small quantities of raw materials
13
   “Here, there and everywhere,” The Economist, January 19, 2013, http://www.economist.com/news/special-
report/21569572-after-decades-sending-work-across-world-companies-are-rethinking-their-offshoring.
14
   Boston Consulting Group, “Rising U.S. Exports — Plus Reshoring — Could Help Create up to 5 Million Jobs by
2020,” press release, September 21, 2012, http://www.bcg.com/media/PressReleaseDetails.aspx?id=tcm:12-116389.
15
   According to a January 2013 article in The Economist “a Taiwanese firm that does a lot of manufacturing for Apple
and other big technology firms, doubled pay at its factory complex in Shenzhen after a series of suicides.” See
“Reshoring Manufacturing: Coming Home,” The Economist, January 19, 2013,
http://www.economist.com/news/special-report/21569570-growing-number-american-companies-are-moving-their-
manufacturing-back-united.
16
   PWC, A Home for US Manufacturing?, September 2012, http://www.pwc.com/us/en/industrial-
products/publications/us-manufacturing-resurgence.jhtml.
17
   “Here, there and everywhere,” http://www.economist.com/news/special-report/21569572-after-decades-sending-
work-across-world-companies-are-rethinking-their-offshoring.
18
   3-D printing is a type of additive manufacturing, which is distinct from traditional machining techniques (subtractive
processes) that mostly rely on the removal of material by methods such as cutting and drilling.
19
   For more information on 3-D printing, view the PBS Off Book documentary “Will 3D Printing Change the World?” at
http://video.pbs.org/video/2339671486/.
20
   Joe McKendrick,”3D Printing may put Global Supply Chains out of Business: Report,” Smartplanet, October 9,
2012, http://www.smartplanet.com/blog/bulletin/3d-printing-may-put-global-supply-chains-out-of-business-
report/2019.
21
   Patrick Seitz “3D Printers Graduate From Prototypes To End Products,” Investor's Business Daily, July 20, 2012,
http://news.investors.com/business-industry-snapshot/072012-618960-ssys-ddd-lead-the-emerging-3d-printing-
market.htm?p=full.

U.S. Postal Service Office of Inspector General                                                                 June 3, 2013
                                                           5
RARC-WP-13-010                                                                           The Global Logistics Revolution



used in localized manufacturing, as well as finished goods, to and from individual
producers and consumers. This would empower consumers by cutting out traditional
middlemen and bringing production to a local, and often individual, level. Moreover, a
shift from global mass production to local mass customization would rely on crucial first
and last-mile links. Currently, the Postal Service’s network is unmatched in this
capacity. Figure 2 depicts how 3-D printing could lead to increased package mail
volume.

                      Figure 2: 3-D Printing May Lead to More Package Mail Volume




        Source: U.S. Postal Service Office of Inspector General (OIG) Analysis


The Evolution of Retail
In today’s increasingly connected society, consumers have grown accustomed to
demanding products where and when they want them. As stated by Retail Systems
Research, “[r]etailing is no longer about how retailers want to sell, but how consumers
want to buy.” 22 This has fundamentally changed how retail works in the United States.
Increasingly the “store” is everywhere: in the consumer’s pocket, at home, at the office,
and at the mall. 23 Consumers are using smartphones and tablets to interact with
retailers, research products and prices, and make purchases on the go. In addition,
22
   Brian Kilcourse, “Supply Chain Transformation: It’s a Team Thing”, Retail System Research, March 6, 2012,
http://www.rsrresearch.com/2012/03/06/supply-chain-transformation-its-a-team-thing/.
23
   Jones Lang LaSalle, Retail 3.0: The evolution of multi-channel retail distribution, May 2012,
http://www.us.am.joneslanglasalle.com/ResearchLevel1/Retail%203.0_WhitePaper.pdf.

U.S. Postal Service Office of Inspector General                                                            June 3, 2013
                                                          6
RARC-WP-13-010                                                                               The Global Logistics Revolution



e-commerce — including m-commerce (transactions conducted through mobile devices
like smartphones) — continues to expand as a major presence in the American
economy. Online retail sales in the United States are expected to reach $327 billion in
2016, reflecting a 45 percent increase from 2012 levels. 24 As e-commerce has grown in
volume, many retailers responded by developing separate sales channels to take care
of their online trade — a “multichannel” sales approach. 25 This often meant that retailers
kept entirely separate sales systems, inventories, and distribution networks for goods
they sold online versus goods they sold through traditional retail stores. However,
consumers now want to mix and match their shopping experiences at physical stores
and online. In order to meet these new customer expectations, retailers are retooling
their multichannel strategy into an “omnichannel” shopping strategy — a seamless
customer experience across all channels.

A true omnichannel customer experience means that point of sale no longer dictates the
point of product delivery. This is a buy anywhere, deliver anywhere world. Some
customers may buy a product in a store but research it through the online channel.
Other customers may do the exact opposite and research the product in a store but buy
it online — via tablet, laptop, or smartphone. As a result, retailers can no longer view
specific sales channels — such as online, mobile, and traditional retail stores — as
separate business channels. The implications for inventory management, returns
processing, and physical fulfillment functions within the supply chain are significant and
complex. Retailers will have to provide products through the channels and delivery
methods their customers prefer. Customer choice drives everything.

                                      Figure 3: Evolution of Omnichannel Retail

                         Retail 1.0:                        Retail 2.0:                Retail 3.0:
                      Single Channel                       Multichannel               Omnichannel

          •Example: A physical                    •Example: A physical       •Example: Fully
           retail store                            store, computer, or        integrated retail
          •A single point of                       smartphone                 channels
           purchase                               •Several options for       •Seamless experience for
                                                   buying products from a     consumer across
                                                   retailer                   channels
                                                  •Retailer keeps channels
                                                   separate

                                    26
         Source: OIG Analysis



24
   Thad Rueter, ”E-retail spending to increase 62% by 2016,” Internet Retailer, February 27, 2012,
http://www.internetretailer.com/2012/02/27/e-retail-spending-increase-45-2016.
25
   Brian Walker, “Why Multichannel Retail Is Obsolete,” Forbes.com, March 14, 2011,
http://www.forbes.com/2011/03/11/multi-channel-touchpoint-leadership-sales-leadership-obsolete.html.
26
   Based on information from National Retail Federation, Mobile Retailing Blueprint: A Comprehensive Guide for
Navigating the Mobile Landscape, Version 2.0.0, and Margaret Case Little, ”Preparing for Store 3.0,” National Retail
Federation Retail’s BIG Blog, January 16, 2012, http://blog.nrf.com/2012/01/16/preparing-for-store-3-0/.

U.S. Postal Service Office of Inspector General                                                                June 3, 2013
                                                                 7
RARC-WP-13-010                                                                            The Global Logistics Revolution



Within 10 years, shopping as we know it could be very different. There are two
emerging trends in particular that have the potential to dramatically change how we buy
goods: “showrooming” and same-day delivery. While the ultimate effect of these trends
is currently unknown, both could have a tremendous impact on how people shop.

The retail stores of the future might be showrooms — physical locations that serve as
display areas or catalogs for shoppers to touch and feel products before ordering them
from an online source. 27 This trend can already be seen in the number of consumers
who visit a physical store to check out products but then use mobile devices to conduct
price comparisons. One in five consumers is already engaging in showrooming, and a
third of those consumers, after researching a competitor’s price, leave the store and buy
the product elsewhere for a better price. 28

Retailers have responded to this trend in various ways. In late 2011, Amazon released a
price check “app” that allowed users to easily compare competitors’ prices. 29 Target and
Best Buy recently announced that their physical stores will match prices of competitors,
including online retailers like Amazon, in an attempt to reduce showrooming in their
stores. 30 Other retailers have responded to this trend by emphasizing improved in-store
customer service, installing digital kiosks, and taking other actions designed to keep
consumers shopping in their stores. 31 If the trend continues, traditional retailers must
consider either downsizing or repurposing their physical space to better meet customer
demands.

Another emerging trend that could change the way we shop is same-day delivery. Major
retailers have recently begun experimenting with
same-day delivery models, most often in high-           Retailers are experimenting
density urban areas. Amazon uses delivery and           with same-day delivery, but
courier services to get products to consumers.          have not yet found a way to
EBay’s model provides online retail partners a          make it economically
proxy physical footprint by linking their products to   sustainable.
local buyers — all without eBay having to carry
inventory. Walmart fulfills home delivery orders out of local store inventory rather than
through traditional, centralized warehouses. 32



27
   Jones Lang LaSalle, Retail 3.0: The evolution of multi-channel retail distribution, May 2012,
http://www.us.am.joneslanglasalle.com/ResearchLevel1/Retail%203.0_WhitePaper.pdf.
28
   Marc Schroeder, “Why Showrooming Is Turning Retail Upside Down this Holiday Season,” aprimo, November 15,
2012, http://blog.aprimo.com/why-showrooming-is-turning-retail-upside-down-this-holiday-season.
29
   Erik Kain, “Amazon Price Check May Be Evil But It’s the Future,” Forbes.com, December 14, 2011,
http://www.forbes.com/sites/erikkain/2011/12/14/amazon-price-check-may-be-evil-but-its-the-future/.
30
   Ashley Lutz, “Target Unveils Key Measure to Kill ‘Showrooming,’” Business Insider, January 8, 2013,
http://www.businessinsider.com/target-will-match-amazons-prices-2013-1 and Chris Burritt, “Best Buy Makes Price
Match Permanent to Win Back Clients,” Bloomberg, February 15, 2013, http://www.bloomberg.com/news/2013-02-
15/best-buy-makes-price-match-permanent-to-win-back-clients.html.
31
   Dianna Dilworth, “Use Showrooming to your Advantage,” Direct Marketing News, January 1, 2013,
http://www.dmnews.com/use-showrooming-to-your-advantage/article/274001/.
32
   Shelly Banjo, “Wal-Mart Delivery Service Says to Amazon: 'Bring It',” The Wall Street Journal, October 9, 2012,
http://online.wsj.com/article/SB10000872396390444897304578046461338658772.html.

U.S. Postal Service Office of Inspector General                                                             June 3, 2013
                                                         8
RARC-WP-13-010                                                                            The Global Logistics Revolution



Retailers and analysts are still skeptical about the long-term feasibility and viability of
same-day delivery. It is only feasible in high-density, urban areas, where distances
between warehousing locations and customers are short. Many question the long-term
viability because it is not clear anyone has figured out a way to do it profitably or if
consumers even really want it. Some believe the same-day delivery craze has been
fueled by competitors’ fears that Amazon will dominate this emerging market. They
hypothesize that, rather than being motivated by speed and instant gratification,
consumers desire predictable delivery estimates and flexible options for delivery. 33
However, if consumer interest in same-day delivery is validated, retailers will likely
follow suit and try to carve out market space to meet this demand. Only time will tell if
any of the current models of same-day delivery can meet consumer demand and be
made economically sustainable.

Supply Chains Evolve in a New Era
Actors along supply chains across the world are reacting to the forces and trends
propelling the Global Logistics Revolution. Already the structures of supply chains are
radically changing and new players are emerging on the logistics landscape. Yet new
players still have tremendous opportunities to respond to these trends and forces by
evolving their offerings from basic transport of goods to value-added services focused
directly on what customers want.

Push vs. Pull
The combined forces, discussed previously, are generating increasingly intricate and
volatile environments in which manufacturers, retailers, and logistics service providers
operate. We may have reached a tipping point where the seller no longer dictates the
terms of commerce — power is shifting to the buyer. This has created a demand-driven
supply chain often referred to as “pull” (from the consumer demand) rather than “push”
(from the production and distribution).

In a traditional “push” system, retailers and manufacturers anticipate consumer demand
and produce goods accordingly. The process is not fully dynamic. Under the “pull”
system, however, consumer demand is tracked by retailers at the point of sale and then
sent to manufacturers — almost in real time. These manufacturers then use the
information to try to coordinate their production schedules with actual sales, which
allows them to minimize costly inventory buildup or service interruptions that hurt
sales. 34 Under a pull system sellers must provide what consumers demand or they will
take their business elsewhere. Consumer empowerment — through the information,
reach, and choice supplied by the Internet and smart mobile devices — has dynamically
matched supply with demand. But the pull system does have potential downsides for
retailers. Indeed, adaptable pull networks can result in delays, disruptions, empty
shelves, and lost sales that may have an even bigger revenue impact and deeper

33
   Barney Jopson, “Retailers test same-day delivery demand,” Financial Times, January 8, 2013,
http://www.ft.com/intl/cms/s/0/fb65e662-4c8e-11e2-af2c-00144feab49a.html#axzz2K3pFZQ7F.
34
   Edna Bonacich and Jake B. Wilson, Getting the Goods: Ports, Labor, and the Logistics Revolution, Cornell
University Press, 2008.

U.S. Postal Service Office of Inspector General                                                             June 3, 2013
                                                         9
RARC-WP-13-010                                                                           The Global Logistics Revolution



customer dissatisfaction. Yet, sales order management software capabilities mitigate
these concerns because real-time sales feed order replenishment. Accordingly, the
potential efficiency gains still compel logistics channels that were formerly driven almost
entirely by the supply side to become dynamic, demand-driven coordinated
relationships.

Supply Chains Splinter
To adapt to the heightened focus on consumer demands and mitigate uncertainty for
shippers, some pioneering organizations have “splintered” their traditional supply chains
into smaller, nimbler forms. 35 Some offshore supply
chains that took advantage of cheap labor and            Supply chains are
available capacity are changing. Firms are seeking       breaking into nimbler
less costly inputs, better ways to manage uncertainty    forms in response to
                                                         consumer demand and a
like weather and exchange rate risk, and more
                                                         changing environment.
effective ways to meet fast changing consumer
demand more quickly. 36

Recently, firms began to reevaluate sourcing strategies that influence the location of
manufacturing and final assembly according to demand patterns for a particular product.
High-volume products with relatively stable demand can be manufactured far away, in
locations with easy access to cheap labor or resources. On the other hand, large-size
products, those with volatile demand — both high and low volume — can be
manufactured closer to their point of consumption.

This fragmented approach aligns the supply chain structure with customer demand in
the most cost-effective manner for individual products. It also creates new opportunities
for local and regional logistics players to add value to the connection points or hand-offs
along the supply chain. For example, in addition to long-haul trips that move products as
they arrive at U.S. ports to regional distribution hubs, firms may need a partner to
provide more short distance, recurrent distribution as well as an additional leg directly to
consumers.

Demand for Value-added Services: New Providers Emerge
Over the last few decades, logistics excellence emerged as an effective way for
businesses to differentiate themselves from their competitors and improve margins by
cutting costs. Starting in the late 1970s, many companies began outsourcing their
logistics services to third-party logistics providers, referred to as “3PLs.” 3PL firms
provide a full suite of service offerings by managing, controlling, and delivering
comprehensive solutions on behalf of a shipper. Examples of firms providing 3PL
services include J.B. Hunt Transport Services, American Global Logistics, National



35
   Yogesh Malik, Alex Niemeyer, and Brian Ruwadi, “Building the Supply Chain of the Future,” McKinsey Quarterly,
January 2011, http://www.mckinseyquarterly.com/Building_the_supply_chain_of_the_future_2729.
36
   Joseph O’Reilly, “Trends — January 2012,” Inbound Logistics, January 2012,
http://www.inboundlogistics.com/cms/article/trends-january-2012/.

U.S. Postal Service Office of Inspector General                                                            June 3, 2013
                                                        10
RARC-WP-13-010                                                                                   The Global Logistics Revolution



Retail Systems, and many others. 37 These providers have expanded their services to
cover specific geographies, commodities, and modes of transport, and have integrated
their existing warehousing and transportation services. In the 1990s, 3PLs employed
sophisticated logistics software and inventory management technologies to continue to
support evolving customer expectations. They also started to offer a full suite of value-
added or extra service beyond basic transport, including some of the services depicted
in Table 1. 38

                            Table 1: Examples of Value-added Logistics Services

              Example of Service                                      Description of Service

        Warehousing                               A spectrum of goods receiving, storage, order management,
                                                  and dispatching activities.

        Order picking                             Fulfilling orders by selecting items in a distribution center.

        Customs solutions                         Preparing customs documents, staging and forwarding
                                                  customs cleared freight, and other services necessary for
                                                  cross-border trade.

        Reverse logistics                         Comprehensive returns and recovery management,
                                                  customized delivery options, and end-to-end visibility. Can
                                                  also include testing, repairing, and refurbishing of products.

        Kitting                                   Assembling various elements originating in different locations
                                                  into a single package.

        Other services                            Custom assembly, freight and fleet management, distribution,
                                                  vehicle and equipment rental, quality control, sales order
                                                  management, disposal, recycling, and others.

       Source: OIG Analysis

The 3PL market is just one piece of the overall logistics market. However, it alone was
valued globally at $134 billion in 2011, with an annual growth rate of 10.3 percent in the
U.S. since 1996. 39 While competition in this fast-growing market is strong, there are still
opportunities for new entrants with unique skills or assets to garner significant revenues.

Environmental Concerns
Environmental concerns over energy consumption, carbon emissions, waste disposal,
and traffic congestion are playing a progressively larger role in the changing logistics
landscape. Providers are searching for innovative ways to minimize ecological impacts
by optimizing the movement of goods through the supply chain. Some of these

37
   These examples were identified on Inbound Logistics’ 3PL search tool at
http://www.inboundlogistics.com/cms/search-tool/3pl/ on April 3, 2013.
38
   Logistics List, “What is 3PL,” http://www.logisticslist.com/what-is-3pl.html and Chapman, R., Soosay, C., &
Kandampully, J. (2003), “Innovation in Logistics Services and the New Business Model: a Conceptual Framework,”
International Journal of Physical Distribution & Logistics Management, Vol. 33, No. 7 , pp. 630-650.
39
   Jeff Berman, “3PL market shows decent gains from 2010 to 2011, says Armstrong & Associates,” Logistics
Management, May 23, 2012, http://www.logisticsmgmt.com/article/3pl_market_shows_decent_gains
_from_2010_to_2011_says_armstrong_associates/.

U.S. Postal Service Office of Inspector General                                                                    June 3, 2013
                                                                11
RARC-WP-13-010                                                                          The Global Logistics Revolution



responses make current operations more environmentally friendly, such as switching to
more fuel-efficient vehicles and shifting from air and truck transport to train for long-haul
trips. Another trend is that customers, who now receive more shipments directly to their
door are demanding green packing solutions. In response, firms are implementing new
packaging technology that can greatly reduce the amount of packing materials used to
protect cargo during transport. 40 Not only do such changes help the environment, but
they also cut material and shipping costs. Logistics providers that can create more of
these win/win solutions will garner business while also reducing the carbon footprint of
their supply chain: “It is good for the company. It is good for the customer. And it is good
for the planet." 41

A Pivotal Moment: Implications for the Postal Service
The forces and trends shaping the logistics landscape provide an opportunity for the
Postal Service to better meet the emerging needs of citizens and businesses while also
dramatically improving its finances and supporting core products. In particular, shifting
                                      trends in commerce, urban growth, and rural and
  … an even more serious
                                      inner city neglect play naturally into the Postal
  concern is that customers’          Service’s unique first and last-mile capabilities.
  expectations are evolving           While the Postal Service is certainly making moves
  beyond basic package                to better serve customers and be more involved in
  transport to a wider suite of       logistics services, a February 2013 Accenture
  logistics services than is          report identified the Postal Service as one of the
  currently provided by the           “traditionalist” postal operators, which lag behind
  Postal Service.                     other posts in revenue from diversification into
                                      high-growth markets like logistics and are more
vulnerable to mail volume declines. 42 Regardless of what future direction the Postal
Service takes, it needs to be responsive to changing demands on multiple fronts, as the
Global Logistics Revolution is affecting both shippers of goods and end consumers.

Changes fueled by technological advancements are happening at an unprecedented
pace. The Postal Service must continue to evolve its logistics functions to meet basic
demands. If it fails to move forward, it risks missing its chance to become a viable
player in the logistics market. Customers’ expectations are evolving beyond rudimentary
package transport to a wider suite of logistics services than is currently provided by the
Postal Service. Customers want more than to simply have their package arrive; they
want control over the delivery and returns process. They now expect visibility tools like
full track and trace, options for time-sensitive delivery, and much more. If such basic
services are not provided, the Postal Service risks losing its existing business in the
high growth expedited and package service market. Some logistics capabilities are no
longer optional; rather, they are an integral and necessary extension to the existing
delivery entity.

40
   Peter Bradley, “That was easy (On the planet),” DC Velocity, February 26, 2013,
http://www.dcvelocity.com/print/article/20130226-that-was-easy-on-the-planet/.
41
   Ibid.
42
   Accenture, Achieving High Performance Growth in the Postal Industry, 2013, http://www.accenture.com/us-
en/Pages/insight-achieving-high-performance-postal-industry-2013.aspx.

U.S. Postal Service Office of Inspector General                                                           June 3, 2013
                                                       12
RARC-WP-13-010                                                                              The Global Logistics Revolution



Our analysis suggests additional flexibility will be necessary to respond to constantly
changing demands and also highlights viable areas for the Postal Service to develop
value-added services or to partner with existing logistics firms. Figure 4 summarizes the
implications of the Postal Service moving further into the logistics market.

                                    Figure 4: Implications for the Postal Service




                                      Positive                              Negative
                        •Adds new value to products by             •Some aspects may require capital
                         addressing consumers' needs and            investment that is not currently
                         wants                                      available

                        •Generates new revenue and                 •Could divert management
                         volume through existing                    attention from other pending
                         infrastructure                             activities

                        •Strengthens already high value in         •Some more complicated aspects
                         first and last-mile gateway to the         may not be well suited to core
                         household                                  organizational strengths

                        •Can help develop closer
                         relationships with other entities in
                         a complicated value chain




             Source: OIG Analysis


First and Last-Mile Capabilities are Critical to Success
The continued growth of e-commerce, omnichannel retail, and 3-D printing heightens
customers’ needs for first-mile pickup and last-mile delivery. The Postal Service’s
nationwide first and last-mile capabilities provide an infrastructure with unmatched reach
in door-to-door level deliveries, and a strong regional and local presence of actively
interconnected hubs and spokes. In fiscal year (FY) 2012, the Postal Service reached
more than 152 million delivery points, every home and business, along approximately
227,000 routes, an operation managed through nearly 25,000 delivery units often
located at Post Offices. Because of this reach, private sector package delivery
competitors like UPS, FedEx, and others already use the Postal Service’s Parcel
Select™ program because of its natural advantages for last-mile delivery in a number of



U.S. Postal Service Office of Inspector General                                                               June 3, 2013
                                                              13
RARC-WP-13-010                                                                            The Global Logistics Revolution



areas. The service is also beneficial to online retailers because they can pass on the
relatively low cost via cheap or free shipping to their consumers. 43

There are also potential risks to the Postal Service’s ability to capitalize on its first and
last-mile capabilities, including current efforts to shrink the size of its processing center
network and proposals to close a number of delivery
units. Plans to reduce or realign processing centers          In order to benefit from
and delivery units should take into account the               new opportunities, the
implications on the Postal Service’s advantages in            Postal Service must
package delivery and value-added logistics services           protect its low cost
market. For example, simply downsizing without                advantage in pickup and
planning could leave the Postal Service with large            delivery by carefully
regions with no nearby parcel processing facilities.          considering the impact
This could limit the number of points available for           of network realignment.
parcels to enter into the Postal Service system for
rapid delivery or the ability to develop microwarehousing capabilities. This could also
mean that next-day delivery is cut off from some areas, as the service could be
infeasible or impractical without a processing facility nearby.

The Postal Service’s unique first and last-mile capabilities are also critical in relation to
the emerging trends of megaregions and 3-D printing. If rural areas are left behind by
the rise of megaregions, as envisioned by DHL Deutsche Post, most private carriers will
be unwilling or unable to service communities in those areas. But the Postal Service has
a legal obligation to provide universal service to citizens all across the United States
and it is the only organization with a current requirement to meet that obligation. As
such, the Postal Service very well could be the vital link that keeps rural areas
connected to the global transportation supergrid — and not just for delivery of mail and
small packages, but as a crucial communications link or a last-resort provider for a
range of essential services.

The emergence of 3-D printers located in communities across the country could provide
a new source of growth for postal products and services. Because 3-D printing can be
well suited to small production facilities, it could be done anywhere there is electricity, a
broadband Internet connection, and access to raw materials as well as a pick-up and
delivery network — anyplace from storefronts to dorm rooms. The new production
model disaggregates traditional supply chains and may revolutionize long-haul
shipments of raw materials and finished goods. It may also bolster the need for a first
and last-mile provider.

Succeeding in Logistics Requires Flexibility and Demonstrated Value
The Postal Service has taken steps to develop new capabilities and realign its existing
network to offer new services in response to customers’ changing needs. For example,
in 2013 the Postal Service introduced free USPS TrackingTM for Priority Mail and

43
  Mark B. Solomon, “USPS, regional parcel carrier OnTrac to launch "last-mile" delivery service in late summer,” DC
Velocity, February 6, 2013, http://www.dcvelocity.com/articles/20130206-usps-regional-parcel-carrier-ontrac-to-
launch-last-mile-delivery-service/.

U.S. Postal Service Office of Inspector General                                                             June 3, 2013
                                                        14
RARC-WP-13-010                                                                     The Global Logistics Revolution



Standard Post parcels. The Postal Service hopes to achieve 100 percent package
visibility so that consumers and shippers can follow every step of the shipment process.
This effort includes real-time package scanning conducted by carriers with mobile
devices. 44 The Postal Service also offers gopost® automated parcel lockers so that
consumers can pick up packages at desired locations, and it is considering offering
parcel delivery on Sundays. 45

There are signs that the Postal Service is moving from basic transport offerings to a
more wide-ranging array of value-added services. Already the Postal Service is
experimenting with dynamic routing, which would allow it to deliver packages along
more customized routes, and offer services such as same-day delivery. 46 The Postal
Service is currently conducting a same-day delivery trial of its Metro Post® program
through select retailers in the San Francisco area.

Even with all of these current or planned services in place, the question remains: Does
the Postal Service have the flexibility, competencies, and resources necessary to meet
consumers’ needs in a new era? Going forward, the Postal Service and its stakeholders
should consider its role of “binding the nation together” by facilitating commerce in the
context of logistics. Can the Postal Service adapt its strategic position to become a
value-added service provider, or partner with existing logistics firms, in order to avoid
seeing its package products become less valuable to producers and consumers?

Logistics Services Could Support Core Products and New Revenue
By offering value-added logistics services or partnering with existing logistics firms, the
Postal Service could better meet customer needs and improve its bottom line. New
logistics services could help attract more volume. This could, in turn, boost its core
products, as value-added services could make all affected products more attractive to
consumers. As the Postal Service states in its FY 2012 Annual Report to Congress, its
“capabilities and skills acquired in [the package delivery] market will be adapted to help
grow other Postal products and services.” 47

Conversely, not offering logistics services could lead to a decline in postal revenue in
the key growing area of expedited and package services as customers increasingly
expect value-added services. Right now, the Postal Service mostly offers only the
transportation of small parcels, rather than a suite of value-added logistics services. As
other posts and private sector competitors continue to offer many more services,
retailers and individual consumers may choose to switch because the Postal Service’s
options no longer meet their needs. If retailers no longer see the Postal Service as a

44
   Jim Cochrane, United States Postal Service, “MTAC: Visibility and Service Performance” presentation on
November 28, 2012, available at
https://ribbs.usps.gov/mtac/documents/tech_guides/2012/minutes/FocusGroupSlides1112/VisibServPackagesNov20
12.pdf.
45
   Ina Steiner, “USPS to Expand Package Delivery to Sundays,” eCommerce Bytes, February 11, 2013,
http://www.ecommercebytes.com/cab/abn/y13/m02/i11/s01.
46
   Elvina Nawaguna, “Postal Service tries to get smarter on routing,” Reuters, February 7, 2013,
http://www.reuters.com/article/2013/02/07/us-usa-postal-routing-idUSBRE9160SI20130207.
47
   United States Postal Service, Progress and Performance: Annual Report to Congress 2012, p. 30.

U.S. Postal Service Office of Inspector General                                                      June 3, 2013
                                                    15
RARC-WP-13-010                                                                      The Global Logistics Revolution



viable option, reduced competition could result in fewer options and higher costs for
consumers.

Logistics Services at Other World Posts
Market liberalization that began in the 1990s, expanding globalization, and a decline of
their core mail business led many posts to diversify their product offerings to include
value-added logistics services. These posts did so internally by 1) insourcing and
developing assets and capabilities, and/or externally by 2) entering into joint ventures or
completing acquisitions.

Diversification Strategies

Figure 5 illustrates internal and external avenues for diversification and corresponding
opportunities found along a continuum of services, ranging from traditional to value-
added offerings. With increasing complexity, enlisting varying levels of external support
becomes more necessary.

                                    Figure 5: Foreign Post Diversification Matrix




               Source: OIG Analysis




U.S. Postal Service Office of Inspector General                                                       June 3, 2013
                                                         16
RARC-WP-13-010                                                                         The Global Logistics Revolution



Developing internal logistics capabilities allows posts to take advantage of existing
strengths and assets to expand upon their traditional offering by introducing new value-
added services. Some posts have explored enhanced delivery services like text
message notifications and multi-option delivery, as well as comprehensive reverse
logistics capabilities like easy returns from parcel lockers. Such offerings leverage core
                                     products and competencies while also meeting
  Many foreign posts have            customers’ emerging needs for convenience and an
  found that providing value-        “anytime,  anywhere” response. An example of a post
  added logistics services           that developed these capabilities is China Post
  better meets customer              Group. It introduced contract logistics services in
  needs and boosts revenues.         2003, and created the China Post Express & Logistics
                                     Company to offer end-to-end logistics ranging from
basic reverse logistics to highly integrated solutions. 48

The posts’ dependence on business alliances increases with the provision of more
complex value-added offerings. For example, some posts have already partnered with
firms that provide specific capabilities, like one-stop cross border e-commerce solutions.
Other firms may offer services like warehousing, product fulfillment, one-stop payment
processing, and customs clearance for small and medium-size retailers. One such
example is DHL’s Easy Return, which facilitated high-value returns management
services across borders in conjunction with 20 other posts. 49 In North America, Canada
Post’s Borderfree Service provided U.S. retailers a strategic partner that delivers
marketing, logistics, and consulting services to provide seamless, omnichannel entry
into foreign markets. 50

For the most complex and comprehensive offerings, which are often on a global scale,
some posts engaged in mergers and acquisitions or alliances with external firms that
have specific capabilities in logistics. The most prominent example is Deutsche Post’s
acquisition of DHL in 2002 and Airborne Express in 2003. 51 Today, posts and logistics
companies continue to merge to become supranational entities that compete on a
global scale. For example, Belgium’s bpost recently acquired a majority stake in
U.S.-based Landmark Global Services, a provider of international logistics services. 52
And Austria Post has been a player on the pan-European market following the
acquisition of German logistics provider trans-o-flex. 53


48
   China Postal Express & Logistics Company, http://www.ems.com.cn/mainservice/cnpl/e_he_tong_wu_liu.html.
49
   DHL Global Mail, DHL Easy Return, December 2012,
http://www.dhl.co.uk/content/dam/Campaigns/Mail_Campaigns/easy_return/download/120817_return_countries_weig
ht_and_dimensions.pdf.
50
   Canada Post Corporation, “Canada Post Borderfree Announces New Capabilities - Only Provider Offering
Complete Market Entry Service for Untapped…,” Internet Retailer, May 18, 2005,
http://www.internetretailer.com/2005/05/18/canada-post-borderfree-announces-new-capabilities-only-provide. In
March 2012, Canada Post sold Borderfree to FiftyOne Global Ecommerce; see http://www.fiftyone.com/news-
events/fiftyone-acquires-the-borderfree-business-unit-from-canada-post-corporation.
51
   Deutsche Post DHL. (2012). Investor Report 2012.
52
   Post & Parcel, “bpost takes majority stake in US cross-border ecommerce shipper,” January 7, 2013,
http://postandparcel.info/53045/news/companies/bpost-takes-majority-stake-in-us-cross-border-ecommerce-shipper/.
53
   Austrian Post, “Austrian Post acquires majority in German specialty logistics service company trans-o-flex,”
October 30, 2006, http://www.post.at/en/detailansicht_ir.php?meldung=111.

U.S. Postal Service Office of Inspector General                                                          June 3, 2013
                                                      17
RARC-WP-13-010                                                                              The Global Logistics Revolution



Barriers to Entry
The logistics services market is highly competitive, with many established providers, but
it is changing fast and expanding in new ways. Developing new capabilities and
entering emerging markets takes time. For posts, their legacy infrastructure is principally
designed for mail delivery and it may be difficult for them to quickly and easily adapt that
infrastructure for advanced logistics services. Regulatory constraints, paired with the
Postal Services’ rigid organizational structures and institutional capabilities, can make it
more difficult to successfully capitalize on peripheral business opportunities like logistics
even when well suited.
                                                               Table 2: Total Post Revenue vs.
However, research has shown that              Revenue from Logistics
logistics services can provide                                       Approximate
an avenue for sizable new       Postal                              Percent of Total
revenue and might be worth                      Logistics Company
                                Organization                         Revenue from
the investment for postal                                              Logistics
           54
operators. Table 2 provides     Deutsche Post
                                                DHL                      53%
specific examples of            DHL
international posts and the                     Japan Post Sankyu
                                Japan Post                               18%
approximate percent of their                    Global Logistic Co.
total revenue made from         Swiss Post      PostLogistics            14%
logistics services.
                                                  China Post
                                                                     China Post Logistics               14%
Some research indicates the                       Group
acquisition of large, existing     Groupe La Poste Sofipost and Neolog                      10%
providers can be a highly          Canada Post
successful diversification                                SCI                                2%
         55
                                   Corporation
strategy. The Postal
                                  Note: Total revenue includes traditional postal offerings like
Service can learn from the                mail, parcels, and express, as well as logistics services.
experience of these other                 Figures are conservative because posts may also offer
posts. As the evidence                    services that could broadly be considered logistics under
                                          different definitions.
shows, foreign postal
                                  Source: Decision Analysis Partners research provided to OIG,
operators have found value-               based on publicly available information
added logistics services to be
a viable way to sustain core products, respond to new consumer demands, and tap into
existing strengths and assets to generate new sources of revenue.

Strategic Guidance for the Postal Service
The Global Logistics Revolution provides an opportunity for the Postal Service to better
meet the needs of citizens and businesses, increase parcel volume, and generate
much-needed revenue. The Postal Service has the trusted brand and the nationwide
footprint to become an important part of the logistics realm. Postal management could
introduce logistics capabilities along a spectrum of progressive involvement that ranges
54
   United States Postal Service, “Is Diversification the Answer to Mail Woes? The Experience of International Posts,
Final Report,” February 2010, http://about.usps.com/future-postal-service/accenture-presentation.pdf, p. 27.
55
   Ibid, pp. 34 & 26.

U.S. Postal Service Office of Inspector General                                                               June 3, 2013
                                                          18
RARC-WP-13-010                                                                    The Global Logistics Revolution



from basic services (for example, customized pickup and delivery of goods or additional
options to enable m-commerce) to a full suite of value-added services (for example,
warehousing of goods and materials). However, to develop some complex offerings, the
Postal Service would need additional capital and flexibility not currently available. Figure
6 shows examples of logistics services that the Postal Service could offer, potentially by
forming alliances with existing private sector logistics firms.

                                    Figure 6: Logistics Services Value Spectrum




            Source: OIG Analysis

With this limitation in mind, starting with basic services that utilize existing capabilities is
the first step. Moreover, such action should help the Postal Service maintain its current
small parcels business. Many customers expect basic logistics services, and if they
cannot get these services from the Postal Service, they will bring their business to
others. Next, to keep pace with the expectations in the marketplace, the Postal Service
needs to offer logistics services further along the spectrum of involvement. Expanding to
value-added logistics services like warehousing may provide a path forward to new
revenues, as well as a more diverse, sustainable portfolio of service offerings that
customers are actively seeking. The Postal Service would need to balance its focus
between utilizing and strengthening its existing assets and abilities to transport goods
from point A to point B, with developing capabilities to advance into the logistics sphere.

Every point along the spectrum of services offers unique advantages to the Postal
Service. Basic services that leverage the Postal Service’s current transportation system,

U.S. Postal Service Office of Inspector General                                                     June 3, 2013
                                                        19
RARC-WP-13-010                                                             The Global Logistics Revolution



as well as its existing focus on small-to-medium-size businesses, involve minimal risk
and should not require system-wide changes in its processing or delivery networks.
These services would address retailers’ need for customized pick-up, transport, and
delivery, and could spur additional parcel volume. By moving up the spectrum to
develop homegrown products and services or by working with private sector partners,
the Postal Service could create a viable logistics platform by pairing its partners’
strengths with its unmatched first and last-mile capabilities. By partnering, the Postal
Service could provide a combination of basic and advanced services, while mitigating
financial risk, in order to gain a foothold in the logistics industry as the Global Logistics
Revolution propels forward.

Implementation Considerations
For the Postal Service to offer value-added logistics services, it will need to create a
strategic plan that could consider the following elements:

          Identify appropriate private sector partners for potential alliances – By partnering
           with key private-sector organizations, the Postal Service could efficiently tap into
           the skills, experience, and systems architecture needed to successfully enter the
           logistics market. A logistics unit, supported by public-private partnerships, could
           minimize the financial and operational risks to the Postal Service. In addition, the
           Postal Service could benefit from an increase in parcel volumes and
           corresponding revenue that logistics capabilities could generate. Local, regional,
           and new logistics firms could also be ideal partners for the Postal Service.

          Establish long term strategic plans and timeframes – Outlining a long-term vision,
           developing a customer-centric strategy, and setting appropriate timelines for
           introducing logistics service would allow the Postal Service to effectively gather
           resources and position itself for growing consumer demand. However, it is crucial
           for the Postal Service to act now to promote future success. Two primary
           concerns are 1) many established, global players are already moving forward
           and 2) new entrants like regional and local carriers, which are often more flexible
           than large providers, are growing and expanding but lack necessary scale.

          Create a separate, dedicated unit focused on value-added logistics – The Postal
           Service will need special capabilities, expertise, and knowledge to successfully
           implement a strategy for delivering logistics services such as comprehensive
           returns management and warehousing. Establishing a dedicated business unit
           with experienced leadership in the value-added logistics industry would provide
           the Postal Service the vision, focus, and skills necessary to succeed in this
           market and support its customers and core products.

          Assess statutory and regulatory landscape – Because regulatory constraints
           prohibit the Postal Service from moving into nonpostal businesses, some
           logistics services might face legal challenges. However, the existing legal
           framework may allow logistics services that require only simple variations or
           extensions of existing Postal Service offerings.


U.S. Postal Service Office of Inspector General                                              June 3, 2013
                                                  20
RARC-WP-13-010                                                                             The Global Logistics Revolution



          Review existing resources – Some current resources and assets might be
           extremely useful to the Postal Service for engaging in logistics services. For
           example, declining mail volume has led to excess capacity in the Postal Service’s
           processing network. In addition to ongoing optimization efforts, the Postal
           Service could consider utilizing excess capacity to provide logistics services,
           such as warehousing and other offerings, or leasing the extra space to
           companies skilled in such services.

          Design networks to support logistic services – The number of processing facilities
           decreased from 673 in FY 2006 to 417 in FY 2012. 56 Plans suggest an even
           further decline — to fewer than 250 processing facilities by early 2014. 57 And the
           Postal Service has proposed closing some delivery units. Although efficiency
           gains are paramount, the Postal Service should also analyze how facility
           closures might impact its ability to support logistics services that citizens
           demand.

          Funding considerations – The Postal Service’s current financial circumstances
           and lack of capital limit investments in growing new lines of business. Public-
           private partnerships could be a first step in acquiring the financing and capital
           necessary to take the next steps. Ultimately, stakeholders must decide if
           additional logistic services are part of an appropriate role for the Postal Service,
           and then allow it to acquire and allocate the necessary resources to meet the
           changing needs of American citizens and commerce.

Conclusion
The Global Logistics Revolution will continue disrupting traditional supply chains and
changing how, when, and where people buy products. Although the Postal Service is
currently in a great position to capitalize on the forces and trends reshaping commerce,
the window of opportunity could be closing. To meet Americans’ needs, the Postal
Service should ensure that it can provide, either internally or through partnerships,
value-added logistics services that are rooted in convenience, flexibility, customization,
and speed. The Postal Service can and should begin preparing itself to meet future
scenarios as the Global Logistics Revolution continues to reshape the way products are
made and delivered. The Postal Service has many assets and capabilities, like its first
and last-mile network, that can support successful entry and complement other players
to better meet citizen and business needs. Further waiting on the sidelines could result
in a missed opportunity as entry barriers become too high and preferences become
entrenched.




56
  United States Postal Service, Progress and Performance: Annual Report to Congress 2012, p. 7.
57
  United States Postal Service, Five-Year Business Plan: April 2013, April 16, 2013, http://about.usps.com/strategic-
planning/five-year-business-plan-2012-2017.pdf, p. 19.

U.S. Postal Service Office of Inspector General                                                              June 3, 2013
                                                         21
RARC-WP-13-010                                                                        The Global Logistics Revolution




                                    U.S. Postal Service Office of Inspector General
                                                 1735 N. Lynn Street
                                                 Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                      For media inquiries, contact Agapi Doulaveris
                                              Telephone: 703-248-2286
                                               adoulaveris@uspsoig.gov



U.S. Postal Service Office of Inspector General                                                         June 3, 2013
